           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

       SINGLE AUDIT OF THE
  COMMONWEALTH OF MASSACHUSETTS
       FOR THE FISCAL YEAR
        ENDED JUNE 30, 2009

     November 2010   A-77-11-00004




 MANAGEMENT
ADVISORY REPORT
                                               Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we ins p ire p u b lic c o n fid e nc e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                              Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). The m is s ion o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e n c ou ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                        SOCIAL SECURITY
MEMORANDUM

Date:      November 24, 2010                                                     Refer To:

To:        Rebecca Tothero
           Acting Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the Commonwealth of Massachusetts for
           the Fiscal Year Ended June 30, 2009 (A-77-11-00004)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the Commonwealth of Massachusetts for the Fiscal Year ended June 30, 2009.
           Our objective was to report internal control weaknesses, noncompliance issues, and
           unallowable costs identified in the single audit to SSA for resolution action.

           KPMG, LLP performed the audit. The desk review conducted by the Department of
           Health and Human Services (HHS) concluded that the audit met Federal requirements.
           In reporting the results of the single audit, we relied entirely on the internal control and
           compliance work performed by KPMG, LLP and the reviews performed by HHS. We
           conducted our review in accordance with the Council of the Inspectors General on
           Integrity and Efficiency’s Quality Standards for Inspections.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Massachusetts Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The DDS is reimbursed for 100 percent of allowable costs. The
           Massachusetts Rehabilitation Commission (MRC) is the DDS’ parent agency.

           The single audit reported that some DDS employee timesheets did not have the
           required supervisory approval signature. Accordingly, there was no assurance that
           DDS payroll expenditures totaling $12,772 were accurately charged to SSA. The
           corrective action plan indicates the MRC is in the process of developing agency wide
           policies and procedures to ensure that employee timesheets are reviewed by program
           supervisors. (Attachment A, Page 1).
Page 2 – Rebecca Tothero


We recommend that SSA:

1. Ensure MRC implemented appropriate policies and procedures for supervisory
   review of DDS employee timesheets, and

2. Determine if the $12,772 in DDS payroll expenditures were appropriate and, if not,
   request a refund of the unallowable costs.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                               Patrick P. O’Carroll, Jr.

Attachments
                                                                                                          Attachment A
                                                                                                            Page 1 of 1

Mass ac husetts Rehabilita tiun   Cumm is~iun


Reh:llJilillllion &'r viCl'S - Vo clltionlll Reh:lbilillilion C nm b II.! Slain (84.126)
Social Secur ity Ilisabilit y Insurance (96.f101)

Federal Award Number:               HJ2 6A90028A               Fed eral Awa rd Yea r :     2()09
                                    0904M AUIOO                                            2()()9

U.S. Oqlllrimeni of Educalion
Social Sec ur ity Administra tion




Requirement
Comp{."nsalion for personnel servites intludes all remunerntion. paid currently or actrued. for scrvice~ rendered
during the period of perfonnance under Federal awards. including but not necessarily limited to wages. salaries.
and fringe benefits. The wsts of such tOmpcnSlltion are allowab le 10 the extent that they satisfy the specific
requirements of th is Circular, and that the total compensation for individual employees: (I) Is reasollable for the
services rendered and conforms to the established policy of the governmental un it consistently appl ied to bo th
Federal and non Federal activities; (2) Follows an appoi ntment made in accordance with a governme ntal un it's
laws and rules and meets merit system or other requirements requ ired by Federal law, where applitable; and
(3) Is detenni ned and supported as provided in subsection h (OMB Circular A·S7 Attachment B Section 8 (a»
These standards regarding time distribution are in addition to the standards for pa)Toll documentation.
(I) Charges to Federal awards for salaries lind wages, whether trea ted liS direct or indircct coStS, will be based on
payrolls docurnented in accordance with ge llerally accepted practice of the govemlne mal unit lIIld approved by a
respons ible official(s) of the govemmentlll uni t (OMB Circ ular A-87 At1llchmcnt B Section 8      (h»
Finding
The Commonwealth of Massachusens Human Resources Division's Time and Anend.1 nce Policy (Revised
May 4, 2(06). requires that time:: sheets be approved by an employee's su pervisor.
Our review distlosed the following:
•   Nine timesheet~ for five L"II1p loyecs from our s.ample of 60 Vocational Rehabi litat ion Program timesheet~ did
    110t have a supervisory approval Sigllature. QUestiOlled costs :l.Jnounled to $11.876 for Ihe ti mesheets
    invol ved
•   12 timeshccts for six employees from our sampk of 60 Social Security Disabili ty Program timeshcct~ did nOt
    have a supervisory approval siglJature. Questioned costs amounted to $ 12.772 for the timesheets involved.
The absence of a payroll supervisor's signature does not provide for adequate assurance that payroll expenditures
arc accurate and va lid and the program is being char~ed only for the actual time:: an employee ha~ workL-d on a
progra m.
R ~c omm .,od atio n


The IX panme::nt should improve existing internal controls to ensure that employee timeshee ts are reviewed by
prOgT'.!m supL'Tvisors.
Rd~l l-d   Nu ncompliancl'
Based on the above, the Ue panment is not in compliance with the stated requirement.
Ques.tioned Costs
$1 1.876 (CrDA 84.126)
$12,772 (CFDA 96.001)
Views of Res ponsible Ofl1cials nnd Cor recth'e Ac ti ons
MRC is in the process of develo ping Agency-wide policit:;s and procedures regarding the impTOvt:;IIJt:;nt of
existing internal controls to ensure that employee tilTlCSheets are reviewed by program supervisors. The
scheduled tomp letion &te of this project is June 30, 2010.

Contnc!:                        Ruth Paulson, CFO

Imille ment alion Untc:         July 1. 20 10
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
